No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DOUGLAS BROWNBACK, ET AL., PETITIONERS
v.
JAMES KING
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 25th day of October, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,792
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 25, 2019.

October 25, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

DOUGLAS BROWNBACK, ET AL.
JAMES KING
PATRICK M. JAICOMO
DAVID A. PORTINGA
MILLER JOHNSON
45 OTTAWA AVENUE, SW
SUITE 1100
GRAND RAPIDS, MI 49503
616-831-1700
JAICOMOP@MILLERJOHNSON.COM

